<html>
<title> - NOMINATION OF CHRISTOPHER A. MCLEAN AND MICHAEL V. DUNN</title>
<body><pre>[Senate Hearing 106-814]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-814


 
        NOMINATION OF CHRISTOPHER A. MCLEAN AND MICHAEL V. DUNN

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   ON

        NOMINATION OF CHRISTOPHER A. MCLEAN AND MICHAEL V. DUNN

                               __________

                           APRIL 11, 27, 2000

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 67-861 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

                  RICHARD G. LUGAR, Indiana, Chairman

JESSE HELMS, North Carolina          TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAUL COVERDELL, Georgia              THOMAS A. DASCHLE, South Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
PETER G. FITZGERALD, Illinois        J. ROBERT KERREY, Nebraska
CHARLES E. GRASSLEY, Iowa            TIM JOHNSON, South Dakota
LARRY E. CRAIG, Idaho                BLANCHE L. LINCOLN, Arkansas
RICK SANTORUM, Pennsylvania

                       Keith Luse, Staff Director
                    David L. Johnson, Chief Counsel
                      Robert E. Sturm, Chief Clerk
            Mark Halverson, Staff Director for the Minority

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing:

Tuesday, April 11, 2000, Nomination of Christopher A. McLean, to 
  serve as Administrator of the USDA's Rural Utilities Service...     1
Thursday, April 27, 2000, Nomination of Michael Vincent Dunn, to 
  be member, Farm Credit Administration..........................    35

Appendix:
Tuesday, April 11, 2000..........................................    13
Document(s) submitted for the record:
Tuesday, April 11, 2000..........................................    19
Document(s) submitted for the record:
Thursday, April 27, 2000.........................................    45

                              ----------                              

                        Tuesday, April 11, 2000
                    STATEMENTS PRESENTED BY SENATORS

Lugar, Hon. Richard, G., a U.S. Senator from Indiana, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............     6
Conrad, Hon. Kent, a U.S. Senator from North Dakota..............     3
Kerrey, Hon. J. Robert, a U.S. Senator from Nebraska.............     2
                              ----------                              

                               WITNESSES

Hagel, Hon. Chuck, a U.S. Senator from Nebraska..................     2
McLean, Christopher A., Acting Administrator, The Rural Utilities 
  Service, USDA..................................................     4
                              ----------                              

                                APPENDIX

Prepared Statements
    Baucus, Hon. Max.............................................    17
    McLean, Christopher A........................................    14
Document(s) submitted for the record:
    Biographical information of, Christopher A. McLean...........    20
    Letter to Hon. Richard G. Lugar, submitted by Stephen D. 
      Potts, Director, Office of Government Ethics...............    28
    Letter to Hon. Richard G. Jugar, submitted by Stuart 
      Polikoff, Director, Government Relations...................    34

                              ----------                              

                        Thursday, April 27, 2000
                    STATEMENTS PRESENTED BY SENATORS

Lugar, Hon. Richard G., a U.S. Senator from Indiana, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    35
Roberts, Hon. Pat, a U.S. Senator from Kansas....................    42
Grassley, Hon. Charles E., a U.S. Senator from Iowa..............    36
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    43
Leahy, Hon. Patrick J., a U.S. Senator from Vermont..............    40
Conrad, Hon. Kent, a U.S. Senator from North Dakota..............    41
Baucus, Hon. Max, a U.S. Senator from Montana....................    42
                              ----------                              

                               WITNESSES

Dunn, Michael V., to be member, Farm Credit Administration.......    36
                              ----------                              

                                APPENDIX

Document(s) submitted for the record:
    Biographical information, of Michael V. Dunn.................    46
    Letter to Hon. Richard G. Lugar, submitted by Stephen D. 
      Potts, Director, Office of Government Ethics...............    52



 NOMINATION OF CHRISTOPHER A. MCLEAN, TO SERVE AS ADMINISTRATOR OF THE 
                     USDA'S RURAL UTILITIES SERVICE

                              ----------                              


                        TUESDAY, APRIL 11, 2000

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SR-328A, Russell Senate Office Building, Hon. Richard G. 
Lugar, (Chairman of the Committee), presiding.
    Present or Submitting a Statement: Senators Lugar, 
Fitzgerald, Grassley, Harkin, Conrad, Daschle, and Baucus.

OPENING STATEMENT OF HON. RICHARD G. LUGAR, A U.S. SENATOR FROM 
  INDIANA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    The Chairman. This hearing of the Senate Agriculture 
Committee is called to order.
    Today, the Committee is holding a hearing on two matters. 
First is the confirmation of Christopher A. McLean to serve as 
Administrator of the USDA's Rural Utilities Service. Our second 
topic is the MTBE Crisis and the Future of Renewable Fuels.
    We will turn first to the confirmation of Mr. McLean. He is 
a native of Nebraska and has served as the Acting Administrator 
of the Rural Utilities Service since November of 1999. Before 
that, he served as Deputy Administrator of this agency. He is 
no stranger to the Senate, having worked for both Senator Bob 
Kerrey and former Senator Jim Exon.
    We are privileged today to have Senator Kerrey, who is a 
member of our committee, and Senator Hagel, the delegation of 
Senators from Nebraska, to offer words of introduction for Mr. 
McLean.
    As the Agency that provides infrastructure financing for 
electric, telecommunications, and water and waste disposal 
projects in rural America, the Rural Utilities Service has an 
important mission that is vital to the health and quality of 
life of people on farms in our country. As Administrator of the 
Rural Utilities Service, Mr. McLean would oversee the 
management of a huge loan portfolio, including investments in 
approximately 7,000 small-community rural and wastewater 
systems, and 2,000 electric and telecommunications systems 
servicing rural America.
    I welcome you to the Committee, Mr. McLean, and look 
forward to hearing your testimony.
    First of all, I would like to call upon my colleagues for 
their comments of introduction.
    Senator Kerrey.

    STATEMENT OF HON. J. ROBERT KERREY, A U.S. SENATOR FROM 
                            NEBRASKA

    Senator Kerrey. Well, Mr. Chairman, you have given most of 
the relevant details about Chris McLean. He is from Nebraska.
    [Laughter.]
    But I would like to use this as an opportunity, if I could, 
Mr. Chairman, for you and for colleagues and for the record. I 
came into politics in 1982, straight from business and naive 
about many things concerning government. Key amongst them was 
the idea that all the good human beings were in the private 
sector, and that it was not likely in the public sector you 
would find very many people that were superior to people in the 
private sector or that would be willing to work as hard, etc., 
etc..
    That myth was shattered very early on in my term as 
governor. It doesn't mean that we don't have to work to try to 
reform government, but I am very impressed with the quality of 
people and their willingness to sacrifice and work for the 
common good, and Chris McLean is in that category.
    He comes to jobs willing to spend the time necessary to 
understand the details. He comes with a great respect for the 
power of the law to do good and bad. He has, I think, the right 
balance of respect for what the marketplace can do and what our 
laws can do to assist where the market doesn't get the job 
done, and I think will make an excellent Administrator of the 
RUS. I appreciate very much not only his nomination, but I 
appreciate very much his willingness to serve.
    The Chairman. Well, thank you very much, Senator Kerrey, 
for that introduction.
    Senator Hagel

  STATEMENT OF HON. CHUCK HAGEL, A U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you. I, too, am pleased 
to have an opportunity to say a couple of words about our 
friend, Mr. McLean.
    As Senator Kerrey noted, Mr. McLean starts with an unfair 
advantage in life, having his early grounding and schooling in 
Nebraska. So we take note of that early on. Picking up on what 
Bob said about good people, quality people, committed people, 
this is a man who actually understands what his job is. This is 
an individual who has lived these issues. This is a man who has 
a vast and deep and broad experience foundation to draw from. 
And we never, as you know, Mr. Chairman, have enough of the 
kind of individuals that we are talking about today with Mr. 
McLean.
    The only flaw I can find is that he has not had the high 
honor of working for a Republican Senator, but we shall 
overlook that and I think we can work with that, Mr. Chairman. 
I think it is beyond fixing at this point.
    Senator Kerrey. About as close as you can get. He worked 
for Exon and me.
    [Laughter.]
    Senator Hagel. Some would take issue with that, however.
    [Laughter.]
    But nonetheless, before I get him in trouble and Kerrey and 
I start a dialogue here that probably would not be in the best 
interests of Mr. McLean, I am very enthusiastic about this 
nomination, Mr. Chairman, and I think he will do a terrific 
job, and we look forward to working with Mr. McLean.
    Thank you for holding the hearing.
    The Chairman. Well, we thank both of the Senators from 
Nebraska for giving these words of encouragement about the 
nominee. We appreciate the spirit of support that both of you 
have given to the work of this committee, in addition to your 
words today for Mr. McLean.
    Let me just say prior to calling upon you for your 
testimony and your opening statement that I would just for the 
record say that the FBI background checks were presented to me 
and that I have reviewed all of that carefully. That is one of 
the situations we proceed through. As you know, the chairman 
and the ranking member are supposed to take that responsibility 
carefully on behalf of the other members and bring to their 
attention items that should be brought to their attention.
    Now, during the course of your review with staff and the 
financial disclosures, you have pledged to divest yourself of 
certain securities. I simply make that point, and I would say 
even beyond that which the law requires in terms of the 
denominations that are involved so that there would be no 
potential for a conflict of interest.
    So as far as I can tell, you start this testimony with a 
clean slate, but I would just say for the benefit of those 
watching the hearing, we take very seriously the background 
checks, the financial disclosures, and thoughtfulness with 
regard to potential conflicts of interest because the portfolio 
that you would manage is very sizable. And we appreciated your 
testimony at the time of the rural satellite business, a 
situation which you may come into considerable leadership and 
authority.
    Now, at this point, before you begin your testimony, I ask 
you to raise your right hand and to repeat after me.
    Do you swear that the testimony you are about to present is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. McLean. I do.
    The Chairman. I thank you. Please proceed with your 
testimony.
    Senator Conrad. Mr. Chairman?
    The Chairman. Yes?
    Senator Conrad. Might I say a word just before he begins?
    The Chairman. Of course.

STATEMENT OF HON. KENT CONRAD, A U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. I ask for that opportunity, Mr. Chairman, 
because Chris has been nominated to succeed Wally Beyer, and 
the really, I think, important fact here today is that, of 
course, Wally Beyer is a North Dakotan. Wally Beyer is somebody 
for whom I have enormously high regard. He has served as the 
Administrator throughout the time of this administration and 
done a superb job dealing with the challenges of that agency.
    He tells me that he believes Chris is fully prepared to 
assume the mantle of responsibility of that agency, and none of 
that surprises any of us who worked with Chris while he served 
Bob Kerrey and served Jim Exon, really a first-rate person. And 
I just wanted to make mention of what Wally Beyer said to me in 
a phone call yesterday.
    The Chairman. Thank you very much for that thoughtful 
comment.
    Mr. McLean.

TESTIMONY OF CHRISTOPHER A. MCLEAN, TO BE ADMINISTRATOR, RURAL 
       UTILITIES SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. McLean. Thank you very much, Mr. Chairman and members 
of the Committee, for scheduling today's hearing. And thank 
you, Senator Kerrey, Senator Conrad, and Senator Hagel, for 
your very kind words, your support, and your friendship.
    I also appreciate the presence of my friends and colleagues 
who are here today, and I also want to pay special thanks to my 
parents back home in Omaha. And most importantly, I would like 
to thank my wife, Helen, who has been a most understanding and 
supportive wife, partner, and my best friend.
    As a former Senate staffer, it is a profound honor to 
appear before the Committee as the President's nominee to be 
the Administrator of the Rural Utilities Service. I am deeply 
grateful to have had the honor and privilege of serving as 
counsel to two great Senators, Jim Exon and Bob Kerrey. From 
them, I learned what it is to be a public servant.
    Now, maybe this will make Senator Hagel feel a little 
better, but as a Nebraskan it is a special honor and privilege 
to be nominated to lead the Rural Utilities Service because 
many of you know that Republican Nebraska Senator George Norris 
introduced the Rural Electrification Act in 1936. So to this 
day, I continue to work for a Nebraska Senator.
    I am also humbled to be asked to follow in the footsteps of 
Wally Beyer. As the last Administrator of the Rural 
Electrification Administration and the first Administrator of 
the Rural Utilities Service, Wally is the alpha and the omega 
of the rural electric cooperative movement. Wally taught me 
very well; I learned a great deal from him. He led the Agency 
into the 21st century, and I am very honored to be asked to 
carry the torch that he re-lit, forward.
    Mr. Chairman, I am very pleased to report that the Rural 
Utilities Service and its authorizing legislation is sound. 
With the oversight of this committee, the Agency is working to 
improve the quality of life for millions of our fellow 
citizens, and setting an example of successful economic 
development. The agency is blessed with a dedicated corps of 
professionals. Everyday, they make me very proud to serve among 
their ranks.
    The programs of the Rural Utilities Service are pistons in 
a great engine of economic growth. As the Nation enters a new 
century, the need for rural infrastructure support is very 
clear. Over 75-percent of the Nation's land mass is rural and 
25-percent of the Nation's population lives in rural areas. 
America cannot be strong without sound infrastructure in the 
vast rural areas of this great Nation.
    Rural America faces new challenges. Low commodity prices, 
consolidation, vast areas of out-migration, all highlight the 
need to further extend the benefits of the new economy. This is 
a time of great change in every sector of the utilities 
industry as well. Market and regulatory shifts in the 
telecommunications and energy sectors altered decades-long 
principles of utility economics. And in water, the health and 
safety of rural families and the purity of the rural 
environment are critical to the quality of life.
    But this is also a time of unprecedented opportunity. 
Information age technologies offer the opportunity to suspend 
the disadvantages of distance, density, and geography. 
Renewable resources of energy provide new ways to generate 
income and wealth in rural communities, and the talents, 
imagination and aspirations of rural youth provide the greatest 
reason for optimism. And I am very optimistic that America is 
on the verge of a rural renaissance.
    This is a very unique moment in history. Reliable, 
affordable power, modern telecommunications, safe and clean 
water, the use of telecommunications technologies to enhance 
education and health care are the building blocks of success in 
the new economy.
    The RUS does more than provide a source of affordable 
capital; it ensures a level of quality and an ethic of 
engineering which maximizes the value of every dollar invested. 
RUS programs also leverage and attract private capital to 
utilities projects in rural areas.
    While the RUS is proud of its record of accomplishment, it 
has a vision for the future. RUS is prepared to manage new 
initiatives to strengthen rural America, to close and prevent 
the digital divide, to put the electricity in electronic 
commerce, and to enhance the safety and quality of rural water. 
Mr. Chairman, should the Congress enact new loan guarantee 
legislation on the local-into-local television issue, RUS will 
be ready to meet that challenge.
    The priorities I have pursued as Acting Administrator and 
would pursue as Administrator would be the continuous reform, 
reinvention, and responsiveness of the Agency; the embracement 
of new technologies in all our programs, including renewable 
and distributed generation and broadband services in 
telecommunications; and modern water filtration and treatment.
    We need to focus our attention on those living just beyond 
the reach of our programs. Places like the Mississippi Delta, 
Native American communities, and the colonials along the border 
of the United States and Mexico need special attention, as does 
that family who lives at the farthest corner of the county. 
Finally, the RUS partnership with the private sector and other 
agencies must be maximized to improve the benefit of every tax 
dollar.
    In conclusion, Mr. Chairman, I thank the Committee for its 
attention, and I look forward to working very closely with this 
committee. I appreciate the support that the Senators have 
given me and the unwavering support that this committee has had 
for the Rural Utilities Service and for keeping alive the 
spirit and the vision of George Norris.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McLean can be found in the 
appendix on page 14.]
    The Chairman. Thank you, Mr. McLean.
    I would like to call now on the distinguished ranking 
member of the Committee, Senator Harkin, for any opening 
comments that he might have for our hearings this morning.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Well, thank you very much, Mr. Chairman. I 
want to welcome Chris McLean here. He has an excellent 
reputation in the Senate, serving both Senator Exon and Senator 
Kerrey with distinction. He has spent years dealing with issues 
of importance to rural America. I know firsthand that he cares 
about rural America and he knows what is going on. He knows how 
Congress works, and I believe that his relatively brief tenure 
at USDA has demonstrated a real skill at working with that 
bureaucracy and working with the Hill.
    I just want to point out that the Rural Utilities Service 
is of great importance, as Chris McLean has said, providing 
crucial assistance for rural water and sewer systems, the RECs, 
as well the rural telephone companies and co-ops. Without the 
assistance of the Rural Utilities Service, our ability to 
maintain businesses and a decent quality of life would be a lot 
harder in rural areas.
    As Mr. McLean just said, our population continues to 
decline in many rural areas, and so the cost of providing those 
basic services gets relatively higher all the time. But there 
are new opportunities through new technology and a growing 
understanding of the quality of life in rural American that can 
lead to that renaissance that he is talking about, and I can't 
think of a better person to head that than Chris McLean. I hope 
we can have unanimous support for him and get his nomination 
secured post haste.
    Mr. Chairman, I would just say that Senator Baucus extends 
his apologies for not being here. He supports Mr. McLean's 
nomination, and I would like to submit his statement for the 
record.
    The Chairman. It will be included in full.
    [The prepared statement of Senator Baucus can be found in 
the appendix on page 17.]
    The Chairman. Let me mention likewise that the colleague of 
Senator Harkin, Senator Grassley, on our committee, has had to 
leave in the last few minutes and he wants to give his best 
wishes, as will, I know, Senator Harkin in due course, to the 
Governor of Iowa, whom we have present for a hearing 
immediately following this one. Senator Grassley must Chair 
Committee on Aging hearings today on the funeral industry. So 
he would prefer to be here, but he will be doing his duty.
    Let me begin the questioning with the mandatory question 
that we always ask.
    Mr. McLean, do you agree that, if confirmed, you will 
appear before any duly constituted committee of the Congress, 
if asked?
    Mr. McLean. Yes, Sir.
    The Chairman. Thank you very much for that assurance.
    In many of the programs that are funded by the Rural 
Utilities Service, there is an inherent tension between the 
level of Government involvement and the role of the private 
sector in providing services and financing. One recent example 
of this is the debate over the Access to Local Television Act.
    In your view, what are the public policy considerations 
that justify the Government financing the provision of such 
services to rural America?
    Mr. McLean. Well, first and foremost, it is a vision of 
this Nation being one Nation undivided, indivisible. Rural 
Americans deserve the same level of service, the same quality 
of service, the same access to information that we enjoy in the 
great cities of America. And if we are going to be one Nation, 
we have to make that commitment.
    That statistic of 75/25, 75-percent of the land mass with 
25-percent of the population, just recurs over and over and 
over in my job. Seventy-five-percent of a market is profitable, 
25-percent of the market needs special attention. The same 
thing in rural infrastructure.
    And as we move to competitive marketplaces, whether it is 
in multi-channel video, whether it is in electricity, whether 
it is in telecommunications, the need is for that 25-percent; 
where the marketplace isn't going to pay the first attention; 
needs special attention. That is the reason that programs like 
the Rural Utilities Service, like universal service, in other 
industries like essential air service or what used to be called 
local freight rail assistance, are necessary in order to keep 
rural America part of this one economy.
    The Chairman. We appreciated your testimony earlier that I 
referenced in our digital divide hearing as a part of that, and 
you made a number of those points, I thought, very successfully 
and cogently that day.
    One of the issues facing rural America is the availability 
of adequate health care and health providers. What role does 
the Rural Utilities Service play in solving this problem?
    Mr. McLean. We have a wonderful program called the Distance 
Learning Telemedicine Program which this committee originated 
and worked so hard to keep the support for that program strong.
    In telemedicine, we see absolutely remarkable things 
happening. A family, for example, can avoid hours of time in a 
car to commute to see a doctor by just being able to visit a 
local clinic and using telecommunications technologies in order 
to have examinations and diagnosis and treatment.
    It can also stabilize rural hospitals. What happens 
frequently in health care is when a second opinion is required 
and a patient needs to get into the car and go to the next 
community to get the second opinion and surgery is required, 
surgery usually takes place in that second place. So if you 
could have teleconsultations where it was with doctors in the 
larger communities, the patients can stay in their hometown 
communities and they can have their treatments and their 
surgery in their hometowns. That would help strengthen the 
viability of rural hospitals and rural clinics.
    We are just so excited. There are over 300 distance 
learning telemedicine projects in operation right now under the 
DLT program, and they are doing remarkable things and offering 
real hope that you can live in a rural area but still have 
access to the finest medical advice and finest medical 
treatment anyone else would have.
    The Chairman. Mr. McLean, many people are surprised to 
learn that not all Americans even at this date have access to 
clean, safe drinking water and indoor plumbing. Can you provide 
us with an update on the Agency's efforts to combat this 
problem? What percentage of Americans still lack these 
facilities, and are they mostly in certain areas or is the 
problem widespread?
    Mr. McLean. The agency estimates based on 1990 census data 
that when we began our program called Water 2000, there were 
about 1 million folks without quality water systems or quality 
water service. And we think we have made very steady progress 
in knocking down that number. We estimate perhaps as many as 
300,000 have been reduced.
    In our water program, we do have a waiting list. There is 
more demand for water projects than there are available 
appropriations, and throughout rural America there is a serious 
difficulty of aging infrastructure. I visited a community in 
Big Springs, Nebraska, where the RUS loan was replacing a water 
system that was built around 1911. This is something that 
recurs all through America that the infrastructure is just 
getting to the point where it needs to be replaced and 
upgraded. And when you do that, you are also saving the 
community because without that investment the community will 
not be able to meet clean water standards and face a whole 
number of challenges.
    The Chairman. Senator Harkin?
    Senator Harkin. Mr. Chairman, I have no questions. I think 
you have covered them thoroughly. I just again recommend if you 
have never done this, Chris, get the Congressional Record 
debate on when the Senate was debating whether or not we would 
establish the Rural Electrification Administration.
    Mr. McLean. Yes, Sir.
    Senator Harkin. You have read it. It is a great debate.
    Mr. McLean. It is wonderful, Sir.
    Senator Harkin. And it is appropriate to today's times, I 
mean, because it was amazing how many people were arguing that 
it was not the proper role of Government to string electric 
lines out to rural areas. It is a wonderful debate and it is 
just sort of appropriate to what we are doing right now as to 
whether or not this is something that we can do and invest in 
the future. That is how people saw it at that time, and those 
that pushed it through were correct.
    So I wish you the best in your new job. Please come and see 
me about electro-farming sometime, will you?
    Mr. McLean. Yes, Sir.
    Senator Harkin. I won't get into that.
    Thank you, Mr. Chairman.
    The Chairman. Senator Conrad.
    Senator Conrad. Thank you, Mr. Chairman.
    Chris, before the Budget Committee this year, the head of 
the General Accounting Office, Mr. Walker, whom I generally 
have high regard for, said that the mission of the Rural 
Utilities Service was complete and the Rural Utilities Service 
should be phased out.
    I told him, you know, I think that is a real misnomer 
because obviously once a system has been built, it has got to 
be rebuilt. I mean, the life of these things is not permanent, 
and if we don't have a program that provides the financing for 
those systems, very quickly we won't have a system.
    I tell you, where we have got places in North Dakota that 
have one customer per mile, anybody that thinks that adds up 
without some kind of special assistance and some kind of 
special support from the Federal Government just doesn't care 
much about who is at the end of the line. I told him that it 
would be phased out over my cold, dead body, and he called me 
afterwards and said that he has listened carefully to what I 
had said.
    What would you say to him if he made that case to you?
    Mr. McLean. I think our remarks would be very similar. The 
mission of the Agency is never complete. It is simply more 
expensive to serve rural America; on average, both in 
telecommunications and electric, about three times more 
expensive to serve rural America.
    The consequence of not having a Rural Utilities Service 
would be very simple. For rural citizens, rates would be 
higher, quality would be lower, and economic growth would be 
depressed. And that is a choice that I don't think this Nation 
should make or ought to make. By providing that financing and 
that quality assurance that this agency affords, the entire 
Nation is benefitted.
    A telephone in rural America doesn't just serve the folks 
in that town; it serves the entire Nation. It is a value to New 
York City and Chicago and Los Angeles that we can call Ravenna, 
Nebraska, or that we can call Medina, North Dakota. And to just 
walk away from the high cost of service in 75-percent of the 
geography of this country would be reckless and irresponsible.
    I appreciate your strong support for the program, and 
nowhere is it more evident that it is necessary than a place 
like North Dakota. And I have spent a lot of time in North 
Dakota, particularly with Wally, and the vastness of the State 
is, I think, unbelievable to folks maybe like the head of the 
GAO. Seeing that is believing, and it is almost a miracle that 
America has been able to accomplish electrification and 
telecommunications and water in these most remote places.
    Senator Conrad. Well, I thank you for that. I think those 
are exactly the right answers, and it is critically important 
that we continue to educate people. I frankly was stunned that 
the head of the GAO wouldn't understand that a mission of an 
agency like this one can never be completed. It is an ongoing 
need to rebuild these systems. But, clearly, he is a highly 
intelligent man. He really hadn't thought carefully about the 
implications of his remarks.
    So I thank you for that.
    The Chairman. Thank you, Senator Conrad.
    Senator Kerrey.
    Senator Kerrey. Thank you, Mr. Chairman.
    Mr. McLean, one of the things that I would ask you to 
examine if you are confirmed is whether or not RUS is capable 
of producing an inventory, or perhaps capable of producing an 
inventory in cooperation with the State regulatory commissions 
that govern telecommunications companies to give Congress some 
sense of where we are in terms of meeting the objective of the 
1996 Telecom Act, which was that all communities have enhanced 
telecommunications services.
    First, the term itself is relatively vague, to put it 
mildly, and is apt to be a moving target. So it is not quite as 
easy as determining whether or not I have got twisted copper 
pairs coming into every home, which is an easier goal under the 
old Act to achieve.
    I have got Chairman Kennard coming out to Nebraska. I have 
asked him to do one of his field hearings out there and he is 
going to do it. We sought to answer the question for the 500-
or-so communities in Nebraska to get a specific answer because 
we keep struggling up against our inability to actually answer 
the question. It is difficult to devise a strategy to achieve 
the objective if we don't know where we are.
    And we discovered that there just isn't the data. We just 
aren't able to do it. So our office has been trying to put it 
together on our own and it is exceptionally difficult to do. I 
do think it is a piece of work that would benefit us in 
Congress as we wrestle with the question of how do we achieve 
this goal of universal access to enhanced services. But I also 
think it would be very helpful in the partnerships that we have 
developed between the various Federal agencies, including yours 
and the FCC and the State public service commissions.
    So I would appreciate it very much if you could do some 
investigation as to whether or not you have the resources to do 
it or whether or not it can be done in cooperation with other 
Federal and State agencies that also have the responsibility 
for carrying out this law.
    Mr. McLean. In the very near future, the Rural Utilities 
Service and the NTIA will be coming out with a report which was 
requested by you, Senator Daschle, Senator Harkin and others 
giving an initial assessment of the deployment of advanced 
services.
    One of the findings that we made in that report is that the 
data that is publicly available is very difficult to grapple 
with. But we were able to analyze public data, to interview 
engineers, and validate what I think a lot of people understand 
that the services are rolling out first in the cities, but that 
there are some exceptions.
    The FCC will be collecting more detailed information in the 
next several months which I think will make the evaluation that 
you request a little bit more comprehensive. And we would very 
much be willing to continue work in this area because I think 
it is vitally important.
    Senator Kerrey. Well, Senator Daschle earlier this year had 
some meetings with telecom providers, and I find it very 
interesting that oftentimes the response to the problem is we 
are already solving it. And it is very difficult to know if 
that is true because we simply don't have good data that tells 
us what is the switching capability in the community, what kind 
of connectivity is there, what is the bandwidth capability that 
communities have, and how does that compare to other 
communities throughout the Nation.
    As I said, it is so much more important than it was in the 
old days when all I had to do was figure out whether or not I 
could move voice. In the old days, it was real easy; I knew 
when I had it. Today, it is not, and I think it is very 
important that we get that information. Otherwise, it is going 
to be difficult for us to measure our response in the correct 
way.
    Mr. McLean. In 1993, this committee, with the House 
Agriculture Committee, enacted the English amendment to the 
Rural Electrification Loan Restructuring Act which called for 
State modernization planning of telecommunications. That has 
guided our work at the Agency, and we tried to design 
telecommunications systems which are capable of gracefully 
evolving into advanced services.
    We believe in our engineering studies that getting the 
outside plant right is the most important thing. The distance 
between the switch and the customer is the most important 
factor, and you can evolve the switch to bring advanced 
services. So among our R.U.S. borrowers, I think we have a good 
handle on the quality of service and the capability of evolving 
services to advanced levels. Outside of the RUS family is where 
there is a real challenge in grappling with some of the data.
    The Chairman. Senator Daschle.
    Senator Daschle. Mr. Chairman, thank you for holding this 
hearing. I would just want to emphasize how critically 
important what Senator Kerrey has just said is understood. And 
I know you totally appreciate that, Mr. McLean.
    The telecommunications bill was really founded on two 
pillars. It was founded on the competitor pillar and the 
universal access pillar. I think we have got a long way to go 
on both pillars if we are going to build them strongly enough 
to create the kind of infrastructure in this country we need.
    But I think, of the two pillars, we are lot farther ahead 
in competition than we are in universal service. And whether or 
not we have universal service in large measure is dependent 
upon whether or not we have broadband access, and we don't have 
it today in large portions of rural America. So I just hope 
that the RUS will continue to press with all of its ability to 
ensure that universal service is more than just a code word, 
that it really is the reality out there, and these studies and 
your work will be imperative in accomplishing that.
    I thank you for your answer to Senator Kerrey, and 
hopefully we can continue to work with you on it.
    Mr. McLean. Thank you, and we are absolutely committed 
within the Agency to the principle of universal service and 
have attempted to be helpful, filing over 26 filings with the 
Federal Communications Commission to assist them in their 
implementation of the Telecom Act.
    The Chairman. Well, thank you very much, Senator Daschle.
    Thank you, Mr. McLean. I will work with the distinguished 
Ranking Member for prompt action on your nomination in the 
Committee, and we hope there will be similar consideration on 
the floor. The distinguished Democratic Leader, I know, will 
help to expedite that.
    We thank you for your testimony and your answers, and we 
wish you well and look forward to visiting with you.
    Mr. McLean. I thank you, Mr. Chairman.
    [Whereupon, at 10:10 a.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             April 11, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7861.001

[GRAPHIC] [TIFF OMITTED] T7861.002

[GRAPHIC] [TIFF OMITTED] T7861.003

[GRAPHIC] [TIFF OMITTED] T7861.019

[GRAPHIC] [TIFF OMITTED] T7861.020

      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 11, 2000

=======================================================================

[GRAPHIC] [TIFF OMITTED] T7861.004

[GRAPHIC] [TIFF OMITTED] T7861.005

[GRAPHIC] [TIFF OMITTED] T7861.006

[GRAPHIC] [TIFF OMITTED] T7861.007

[GRAPHIC] [TIFF OMITTED] T7861.008

[GRAPHIC] [TIFF OMITTED] T7861.009

[GRAPHIC] [TIFF OMITTED] T7861.010

[GRAPHIC] [TIFF OMITTED] T7861.011

[GRAPHIC] [TIFF OMITTED] T7861.012

[GRAPHIC] [TIFF OMITTED] T7861.013

[GRAPHIC] [TIFF OMITTED] T7861.014

[GRAPHIC] [TIFF OMITTED] T7861.015

[GRAPHIC] [TIFF OMITTED] T7861.016

[GRAPHIC] [TIFF OMITTED] T7861.017

[GRAPHIC] [TIFF OMITTED] T7861.018



     NOMINATION OF MICHAEL VINCENT DUNN TO BE MEMBER, FARM CREDIT 
                             ADMINISTRATION

                              ----------                              


                        THURSDAY, APRIL 27, 2000

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:01 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Richard G. 
Lugar, (Chairman of the Committee), presiding.
    Present or submitting a statement: Senators Lugar, Roberts, 
Grassley, Harkin, Leahy, Conrad, and Baucus.

    STATEMENT OF HON. RICHARD G. LUGAR, A U.S. SENATOR FROM 
  INDIANA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    The Chairman. This hearing of the Senate Agriculture 
Committee will come to order. The Committee will meet on two 
matters this morning. The first will be a confirmation hearing 
for Michael V. Dunn to be a member of the Farm Credit 
Administration Board.
    I would just say parenthetically that it has been the 
policy of our committee to take up nominations by the 
administration as promptly as we could following submission of 
the proper paperwork and notification by the Secretary of 
Agriculture or others in the administration that were 
responsible. So we are doing that, even though we have a very 
important second mission today, and that is a hearing on 
concentration and competition in agriculture, this being the 
fourth hearing on this subject the Committee has conducted in 
the year 2000.
    First, the confirmation of Mr. Dunn. A native of Iowa, Mr. 
Dunn serves currently as the Under Secretary for Marketing and 
Regulatory Programs at the United States Department of 
Agriculture. Prior to that, he was Deputy Under Secretary for 
Operations and Management in the rural economic and community 
development mission at USDA. In addition, he has served as 
Administrator of the former Farmers Home Administration at the 
Department of Agriculture.
    Mr. Dunn is no stranger to this committee. From 1987 to 
1988 he worked as a professional staff member under the 
chairmanship of Senator Leahy. The availability, efficiency, 
and affordability of agricultural credit remains a very 
important issue to members of this committee and to American 
agriculture in general. As a member of the Farm Credit 
Administration Board, Mr. Dunn would play an important role in 
the future of farm credit. We are pleased to have him before 
the Committee today. We look forward to hearing from him.
    Before recognizing Mr. Dunn for his statement, let me 
recognize my colleague, Senator Grassley, for any comment he 
might wish to make about Mr. Dunn prior to my swearing in the 
witness and hearing his testimony. Senator Grassley?

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM IOWA

    Senator Grassley. Well, I have had an opportunity to speak 
about Mr. Dunn many times that he has been before this 
committee and to remind people that he is from my home State of 
Iowa, and we congratulate him on his appointment. More 
importantly, we compliment him on doing a very good job in 
several different capacities here, both in the private sector 
and the public sector, doing things for agriculture. And we 
know that in his further position that he is going to still 
continue his outstanding work for agriculture.
    The Chairman. Thank you very much, Senator.
    Would you rise, Mr. Dunn, and please raise your right hand? 
Do you swear that the testimony you are about to present is the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Dunn. I do.
    The Chairman. Thank you.
    Let me mention that Mr. Dunn is accompanied today by his 
wife, Brook, and two of their sons, Matt and Carey. Would you 
please stand and be recognized? Thank you very much for coming 
to this hearing.
    Mr. Dunn, you are recognized for your opening testimony.

  TESTIMONY OF MICHAEL VINCENT DUNN, OF WEST VIRGINIA, TO BE 
               MEMBER, FARM CREDIT ADMINISTRATION

    Mr. Dunn. Thank you very much, Mr. Chairman, and thank you 
for the kind words from Senator Grassley.
    I am honored to be nominated by the President for the 
appointment to the Board of the Farm Credit Administration. I 
am very grateful to the chairman and the Committee for holding 
this nomination hearing.
    This will be the third time that I have appeared before 
this committee for a nomination: once in 1993 to become the 
Administrator of Farmers Home Administration, and again in 1995 
for confirmation as a member of the Commodity Credit 
Corporation and as the Assistant Secretary for Agriculture for 
Marketing and Regulatory Programs.
    Mr. Chairman, as a former member of the professional staff 
of this committee, I know how hard you and the Committee worked 
in 1987 to address the agricultural credit crisis that faced 
this Nation. Hours of hearings, markups, and conference 
meetings with the House resulted in the passage of one of the 
most successful pieces of legislation ever crafted by this 
committee.
    As a result of the Committee's hard work, we now have a 
revitalized Federal lending institution at the Farm Service 
Agency, a viable secondary market at Farmers Mac for commercial 
banks, and a strong cooperative lending institution in the Farm 
Credit System that not only repaid its Federal obligations in 
full but did it ahead of schedule. Thanks to this committee, we 
have a healthy, well-capitalized Farm Credit System with the 
added safety of an insurance fund.
    Today, the Farm Credit System holds about 27-percent of the 
$172.8 billion of farm debt, according to Economic Research 
Service's December 1999 Agricultural Income and Finance 
Situation Outlook Report. However, this same report warns that 
persistence in low commodity prices in 2000 will aggravate cash 
flow problems in farm businesses. At least one in four farm 
businesses will not cover cash expenses. This warning should be 
of great concern to the Farm Credit System as it is chartered 
as a single-purpose lending institution for agricultural 
credit. It should also be of concern to our Federal Government 
because of the special status that the Farm Credit System holds 
as a Government-sponsored entity.
    Given the dependency of agriculture on credit and the 
volatility of today's commodity prices, I believe it is 
imperative to have all the board members of the Farm Credit 
Administration positions filled. This board has an important 
role to fulfill. As stated in the Agency's mission statement, 
the Farm Credit Administration will provide a safe and sound 
competitive Farm Credit System to finance agriculture in rural 
American as authorized by Congress.
    Mr. Chairman, I believe that my background in rural 
development, agricultural credit, and regulatory programs, 
coupled with the valuable experience gained while working for 
this committee on agricultural credit, would allow me to 
provide a positive contribution as a member of the board of the 
Farm Credit Administration. Once again, I appreciate the time 
and effort of the chairman, the Committee, and the staff in 
holding this hearing. I will be happy to answer any questions 
that you might have.
    The Chairman. Thank you very much, Mr. Dunn.
    My first question is the question we always raise with each 
nominee. Do you agree that, if confirmed, you will appear 
before any duly constituted committee of Congress if asked?
    Mr. Dunn. I do agree.
    The Chairman. I thank you for that response.
    Let me just mention as background for this nomination that 
there are, in fact, two nomination items, both involved 
yourself. One is for the unexpired term of the late Marsha 
Martin, and that term expires October 13 this year, 2000. You 
have also been nominated for a 6-year term following the 
expiration of that first term. The normal term of each member 
of this board is 6-years, and there are three members of the 
board.
    Now, currently, the other members of the board are Ann 
Jorgensen, a Republican, whose term expires May 21, 2002, and 
Mr. Michael Reyna, a Democrat, whose term expires May 21, 2004. 
The second term for which you are being nominated would expire 
apparently in 2006, October 13, 2006.
    Now, the predicament is simply this, and that is that you 
would be nominated and potentially confirmed for a term that 
carries through the next administration, that is, the next 
President of the United States, and into the following term of 
that President or his or her successor, as the case may be. And 
there are just three members of the board--one of them a 
Democrat, one a Republican. Mr Reyna, a Democrat, his term 
carries through all the way to May 21, 2004.
    Therefore, if you were confirmed for the second term of two 
Democrats, a majority, two out of three of the board, are 
confirmed really through almost the entirety of that next 
administration. I raise that question not in any derogatory 
fashion with regard to your nomination, but just simply from 
the standpoint of the fact we are having an election in this 
country this year, which there may be a Republican nominee 
elected or there may be a Democratic nominee elected.
    In the latter case, presumably a Democratic nominee, Mr. 
Gore, might very well wish for you to continue. The Republican 
nominee, Mr. Bush, might not. He might prefer to have two 
Republicans as board members, which I think is a reasonable and 
logical assumption.
    So I am not certain what the Committee's disposition ought 
to be of this. I raise this for members to consider. If they 
don't consider it in this committee, they certainly will 
consider it on the floor of the Senate, and it is an issue I 
think the administration needs to consider. But notwithstanding 
that, we wanted to have the hearing in good faith to make 
certain that we move the nomination in a proper way so that all 
of the issues with regard to your qualifications were clear. 
And so if it is the will of the Committee, we could have a 
markup and consideration then by the full Senate of both 
nominations or one nomination, as the case may be.
    But I mention that, not really asking for your comment, but 
simply as the lay of the land of a political situation that has 
arisen as we consider the nomination.
    Mr. Dunn. Mr. Chairman.
    The Chairman. Yes.
    Mr. Dunn. If I could briefly respond to that, because I 
think it is a grave consideration for the Committee and for the 
administration as a whole.
    I know this committee during my tenure working here has 
always been very, very bipartisan. I think everybody involved 
in it, staff members are aggies first and then something else 
later on, and that has worked very, very well for this 
particular committee.
    I have been nominated in the past by a Republican Governor 
to serve on State boards, and I consider myself a professional 
in this arena, and I would certainly want to carry out in a 
bipartisan manner the mandates of Congress.
    Notwithstanding that, I think there is also another 
consideration here. There was recently an article about the 
length of time it takes for nominations to be made, and having 
gone through this process for the third time, I can say amen to 
that. It does take a considerable amount of time. It is not 
unheard of for nominations to go a year or longer.
    I think that the volatility that we currently have in 
commodity prices simply dictates that we need to have these 
positions filled, and we cannot wait the length of time it 
would take to get a fulfillment. Even if there was a new 
administration getting a new person in there, this is not 
probably a top priority for any administration. It is always to 
get the Secretaries filled immediately. So it may not be until 
2002 that we would have a position filled here.
    So I think it is extremely important that we have for the 
sake of agriculture, agricultural credit, and the Farm Credit 
System that board fully filled.
    The Chairman. I appreciate that comment. My own view is 
that we always have tried on this committee to fill every 
position simply because all of our boards and the 
administration of USDA works better with nominees in place. I 
would mention that at least it has been the usual policy in the 
Farm Credit Administration that after a term expires, unless 
there is someone nominated, or at least immediately available--
and this is at the discretion of the office holder at the 
time--that person continues until a successor, maybe himself, 
is renominated and confirmed.
    But, in any event, this is simply a preliminary issue 
without regard to qualification, and I want to fence it off in 
that way.
    Let me ask about qualifications. What do you consider your 
major accomplishments during your tenure as Under Secretary of 
Marketing and Regulatory Programs at USDA or at the Farmers 
Home Administration? Can you give some flavor of those 
achievements?
    Mr. Dunn. Well, let me start with the Farmers Home 
Administration, because that was at a point in time when we 
were doing a restructuring of USDA and I was responsible for 
that total restructuring and moving Farmers Home, the old 
Farmers Home Administration into the new Farm Service Agency. 
And that was a major accomplishment, getting that through and 
ensuring that it took place with as little disruption as 
possible.
    Also, for years and years, Farmers Home was known as the 
lender of last resort, and that always bothered me because I 
thought that it really should have been the lender of first 
opportunity for people. And for them to be able to do that, 
that would mandate that the men and women who worked for 
Farmers Home Administration offer supervised credit for the 
recipients of FmHA and now Farm Service Agency loans. These are 
folks that could not get loans from other commercial lending 
institutions.
    And so one of the major pushes that I had as Administrator 
was to ensure that we had supervised credit which would thus 
provide a greater opportunity for those folks to succeed and 
eventually graduate into commercial credit.
    As the Under Secretary for Marketing and Regulatory 
Programs, I have had the opportunity to address such issues as 
concentration that is coming up. I have been in front of this 
committee three times, I believe, on this particular issue.
    The Chairman. This year.
    Mr. Dunn. Yes, Sir. And it is a major concern for us. The 
organic rule coming out of Ag Marketing Service, the milk 
marketing order reform, those have been major issues at 
Marketing and Regulatory Programs. And the overall protection 
of animal and plant health under APHIS has also been a major 
concern with the invasive species that we have, ensuring the 
eradication of such diseases as tuberculosis, brucellosis, 
pseudorabies, etc.
    As the Under Secretary, I was responsible for over one-half 
of all the statutory laws covering the Department of 
Agriculture, and that gave me a great deal of experience in 
writing regulations and being the chief regulator.
    The Chairman. Thank you very much for those responses.
    Let me call--I appreciate you were here first, Senator 
Conrad, but I want to recognize my colleague, Senator Leahy, 
the distinguished former Chairman of the Committee and, 
likewise, a very close friend of our nominee. Senator Leahy?

STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM VERMONT

    Senator Leahy. Well, thank you, Mr. Chairman. I thank you 
for your usual courtesy and, Senator Conrad, I thank you, too.
    Mike, I have to apologize. I seem to have hit every single 
wrong street on the way coming in today. In fact, for the 
traffic reports, all they had to do was put something on my car 
and they could tell you where every accident occurred. I was 
not in any of them, but it was always three cars ahead. I 
wanted to be here right at the opening of this because, Mr. 
Chairman, I wanted to just say a few words about Mike Dunn, not 
only one of the most professional people I have ever worked 
with but also a close personal friend.
    I don't get to really introduce him to the Committee. He is 
Under Secretary of Agriculture. He was on my staff on this 
committee. He is well-known to everybody on the Committee. He 
has worked very well with both Republicans and Democrats on 
this committee. I can't think of a better nominee for this 
position. I mean that truly.
    Mike worked night and day in 1987 for months after month on 
the Agricultural Credit Act of 1987. You may recall that at the 
beginning of that, Mr. Chairman, his hair, your hair, and mine 
were jet black, and you see what happened to all three of us. 
The only difference is you retained your hair.
    [Laughter.]
    The Chairman. So did Mike.
    Senator Leahy. No, but seriously, the Agricultural Credit 
Act of 1987, that was hailed a landmark legislation by Time 
Magazine. Mike, I think you remember that. It brought the Farm 
Credit System back from the brink of financial disaster.
    A lot of us worked together on that act along with Mike. 
Mr. Chairman, you did and Senator Cochran and Daschle and Helms 
and Harkin, McConnell and I. Not only did we save the Farm 
Credit System, but I think the thing that gave us all the most 
pleasure, we did it without costing taxpayers a penny. And Mike 
helped bring us through all the different things to do that. I 
think that work alone would make him a great nominee for this 
job, but he also worked with the farm credit banks of Omaha as 
vice president, doing an outstanding job as Under Secretary for 
Marketing and Regulatory Programs.
    I am glad to see Brook and Matt and Carey here. It's also 
``Bring Your Child to Work Day.'' I want you to know, this is 
not your Dad's normal workday. He doesn't usually get in here 
and get praised by everybody. There is always somebody that 
might send a letter who doesn't really understand what he does 
and doesn't praise him, but here he will be. It is like Ed 
Baron who has brought Stephen here to work with him, and others 
have.
    So I hope you will be confirmed quickly, but, Mr. Chairman, 
I just wanted to make those personal comments because he is a 
dear friend, but he is also one of the most extraordinarily 
qualified people I have worked with in my years in the Senate.
    The Chairman. I thank the Senator.
    Senator Grassley.
    Senator Grassley. I have no questions. I made my comments 
already, and I will leave it go at that and congratulate him a 
second time.
    The Chairman. Senator Conrad.

STATEMENT OF HON. KENT CONRAD, A U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman. I want to join 
Senator Leahy in praising this nominee. I have known Mike Dunn 
as a consummate professional, both before he served in the 
administration and during his time in the administration.
    I would hope, Mr. Chairman, given the fact we have an 
opening and we have an administration in place, that we would 
not shrink from sending this name forward and hopefully that he 
will receive confirmation.
    You know, I do worry about kind of what we see happening to 
nominees. I hope very much for whatever the next administration 
is that we find a better way on a bipartisan basis to deal with 
these nominees, because my observation is both Republican 
nominees in previous administrations, nominees in this 
administration, have been put through a tortuous course that 
doesn't serve anybody very well. And the nomination process has 
gotten worse and worse and worse from my observation, more 
partisan, and I am beginning to wonder if anybody is going to 
want to serve in any of these administrations. We have become 
so intrusive and so difficult with nominees.
    Here we have a case where there is an opening on the 
Administration that is critically important to the 
administration of credit for agriculture. We need to have that 
third position filled. Mr. Dunn is eminently qualified and I 
think has demonstrated to everybody that he is evenhanded. I 
have never seen a hint of partisanship, I might say--not a hint 
of it--in his positions. And I hope we take that into account.
    He is a professional. This is an agency that desperately 
needs professional leadership, and I hope we will treat it in 
that way.
    Finally, Mr. Chairman, if I could say on a personal note, 
my experiences with Mr. Dunn--I mean, there have been times, 
frankly, I have disagreed with him, sometimes heatedly, which 
he will recall. But I have admired him because he has been 
professional and he is deeply knowledgeable. And goodness 
knows, with the state of agriculture today, we need that kind 
of quality and that kind of character.
    I thank the Chairman.
    Senator Leahy. Mr. Chairman, if I can just add something to 
that. One thing, too, that makes a difference is who is--I 
mean, the responsibility has to be so strongly on members. What 
Senator Conrad has said is correct. And, Mr. Chairman, at the 
risk of having you drummed out of the Republican Party, let me 
say that you have always been one who has kept his word, who 
has worked to lower this decibel level.
    I am afraid some of us don't, and I think that what Senator 
Conrad has said is true. We get too intrusive. We get too much 
the point of almost as though people have some terrible 
ulterior motive if they want to serve the public interest and 
want to serve in Government, usually at great financial 
sacrifice. And I compliment you for what you have done. I think 
all of us in both parties have got to follow what Senator 
Conrad has said and tell our leadership and everything else we 
have got to lower the decibel level.
    The Chairman. I thank the Senator for his comment. I would 
just thank the Committee, really, for approaching the 
nominations in a bipartisan fashion. We have, I think, 
expedited each of the nominations and have brought them to a 
vote quickly in our committee, and in due course on the Senate 
floor, they have all been dealt with favorably. I think that is 
sort of beyond our pay grade, but we will at least in this 
committee attempt to do the best that we can.
    Senator Roberts.

   STATEMENT OF HON. PAT ROBERTS, A U.S. SENATOR FROM KANSAS

    Senator Roberts. Thank you, Mr. Chairman. I like Mike and 
wish him well.
    I yield back.
    [Laughter.]
    The Chairman. Senator Baucus.
    Senator Baucus. Did you say ``Mike'' or ``Ike''?
    [Laughter.]
    Senator Roberts. Well, both, if you want to bring it up.

   STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM MONTANA

    Senator Baucus. Mr. Chairman, all of us know Mike Dunn and 
have the very same view. I cannot think of anybody that I have 
met and dealt with in this administration or any other who is 
more--the word ``professional'' has been used here. That is 
certainly accurate. I would add a few more adjectives. One is 
he is very open. He has always got an open mind. He is always 
thinking and asking what you have on your mind, not closed-
minded or dogmatic.
    In addition to that, he is always upbeat, always 
optimistic, always trying to find a solution, which is, I 
think, a hallmark of a very good public servant, serving, 
trying to find answers to some of these problems. And he is 
certainly one who knows agriculture backwards, forwards, and 
inside out, just really a good guy.
    Whatever you do, Mike, I wish you very well, and I hope 
this nomination proceeds very quickly, and in other jobs you 
have in life, I know you will do well, and I wish you the very 
best.
    Mr. Dunn. Thank you, Senator.
    The Chairman. Thank you very much, Senator Baucus.
    Senator Harkin.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Thank you very much, Mr. Chairman. I 
apologize. I went over to the Russell Building for this 
hearing, and then I figured out it was someplace else. I should 
look at my schedule.
    First of all, I am just proud to have this opportunity to 
express my strong support for the nomination of Mike Dunn to 
the board of the Farm Credit Administration. I can tell all of 
you I have known Mike Dunn for 30-years now--30-years--and I 
can assure you that he is eminently well qualified for this 
position. His experience and background in ag credit and all 
the related matters will serve him well. I can tell you that 
deep down he has a strong commitment to agriculture and to our 
farm families, rural communities. He is a very conscientious 
and dedicated public servant.
    I think it would be hard to find anyone with a stronger 
background in farm credit matters, the positions he has held in 
the Farm Credit System institutions, area director, 
Administrator of the former Farmers Home Administration. He did 
really great work for this committee helping us find solutions 
to the farm credit crisis of the 1980s, and he worked long 
hours and long weeks to get over those credit problems in the 
1980s.
    So, Mr. Chairman, he is eminently well qualified. He will 
do a great job on the FCA Board, and I hope we can get this 
nomination through and get him on board in a hurry. He is a 
great guy. Congratulations, Mike.
    Mr. Dunn. Thank you, Senator.
    The Chairman. Thank you very much, Senator Harkin.
    Are there any further questions of the nominee by Senators?
    [No response.]
    Hearing no requests for further comment, we thank you, Mr. 
Dunn, for appearing before the Committee, and we will try to 
progress with our consideration of the nomination as promptly 
as possible.
    Mr. Dunn. Thank you, Mr. Chairman. I appreciate that very 
much.
    [Whereupon, at 9:30 a.m., the Committee was adjourned.]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 27, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7861.021

[GRAPHIC] [TIFF OMITTED] T7861.022

[GRAPHIC] [TIFF OMITTED] T7861.023

[GRAPHIC] [TIFF OMITTED] T7861.024

[GRAPHIC] [TIFF OMITTED] T7861.025

[GRAPHIC] [TIFF OMITTED] T7861.026

[GRAPHIC] [TIFF OMITTED] T7861.027

[GRAPHIC] [TIFF OMITTED] T7861.028

[GRAPHIC] [TIFF OMITTED] T7861.029

[GRAPHIC] [TIFF OMITTED] T7861.030

[GRAPHIC] [TIFF OMITTED] T7861.031

                               <all>

</pre></body></html>
